No. 20-1727
In the

~upreme

qcourt of tbe mntteb ~tates
JAMES DAVID O'BRIEN,
Petitioner,

vs.
UNITED STATES SECURITIES AND
EXCHANGE COMMISSION,
Respondent.

On Petition for Writ of Certiorari to
the United States Court of Appeals for the
Second Circuit

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33. l(h), I certify that the
SUPPLEMENTAL BRIEF TO PETITION FOR WRIT OF CERTIORARI contains
1168 words, excluding the parts of the document that are exempted by Supreme
Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 8, 2021
. Hanamirian
Gou el of Record
~ AMIRIAN LAW FIRM, P.C .
40 East Main Street
Moorestown, New Jersey 08057
Telephone: (856) 793-9092
Facsimile: (856)793-9121
E-mail: jmh@h a namirian.com
Counsel for Petitioner

